January 28, 2010

JOSEPH D. MOELLER
MANAGER, REGULATORY REPORTING & COST ANALYSIS

KATHI R. WASHINGTON
MANAGER, FINANCE, CAPITAL DISTRICT

SUBJECT: Audit Report – Statistical Testing at Postal Service Districts
         (Report Number CRR-AR-10-001)

This report presents the results of our self-initiated audit of statistical testing at U.S.
Postal Service districts (Project Number 09RG029CRR000). Our objective was to
review controls over statistical program procedures and testing at selected Postal
Service districts. Based on the results of our review of City Carrier Cost System
(CCCS), In-Office Cost System (IOCS), and Transportation Cost System (TRACS)
testing in the Capital District; and efforts to improve the quality of statistical programs,
we are concluding our audit and issuing a report on the Capital District.

The Postal Accountability and Enhancement Act (the Postal Reform Act of 2006)
requires the U.S. Postal Service Office of Inspector General (OIG) to regularly audit the
data collection systems and procedures the Postal Service uses to prepare its analysis
of costs, revenues, rates, and quality of service for the Postal Regulatory Commission.
This audit addresses financial risk. See Appendix A for additional information about this
audit.

Conclusion

Overall, employees in the Capital District generally conducted statistical testing in
accordance with established policies and procedures. District management actively
participates in a national quality assurance initiative that has cut In-Office Cost
System/Time and Attendance Collection System (IOCS/TACS) discrepancies1 by more
than 50 percent over a 3-year period. However, management could strengthen controls
over the collection of data related to route deviation parcels2 and collection mail.3
Finally, Capital District data collection technicians (DCTs) only completed one of six
TRACS-Rail tests scheduled during our review period. Although we curtailed our
fieldwork after surveying Capital District operations, we noted DCTs nationwide
1
  An IOCS/TACS discrepancy occurs when employee work activity recorded during an IOCS reading does not match
the employee work activity captured by TACS. See Appendix B for a list of discrepancies.
2
  A parcel is considered a route deviation parcel when delivery of the item requires a deviation from the carrier’s usual
route.
3
  The term collection mail refers to mail that the carrier on the tested route brings back to the facility. The carrier’s
supervisor counts and records collection mail on Postal Service (PS) Form 2846, City Carrier Mail Acceptance Data.
Statistical Testing at Postal Service Districts                                               CRR-AR-10-001



completed 78 percent of scheduled TRACS-Rail tests during Quarter 4, fiscal year (FY)
2009. Verifying real-time rail movements would allow DCTs to avoid unnecessary time
spent traveling to facilities. Also, completing additional TRACS-Rail tests would
improve the accuracy of the TRACS data used to allocate rail transportation costs to
mail categories and special services.

Reduction in IOCS/TACS Discrepancies

District management effectively uses IOCS/TACS discrepancy reports to improve the
accuracy of IOCS testing. The statistical programs office at headquarters prepares and
distributes these reports each pay period to district statistical program managers.
District management investigated each discrepancy at the Capital District and a follow-
up report was provided to area management. IOCS/TACS discrepancies at the Capital
District declined 33 percent in FY 2009, from 421 in FY 2008 to 282 in FY 2009. See
Appendix B for a list of IOCS/TACS discrepancies.

Nationally, IOCS/TACS discrepancies continue to decline. Specifically, discrepancies
declined 25 percent in FY 2009, from 15,772 in FY 2008 to 11,867 in FY 2009. Table 1
shows the annual and cumulative decline in IOCS/TACS discrepancies.

                         Table 1. Decline in IOCS/TACS Discrepancies

                                                               Percent Decline
                                              No. of
                          Fiscal Year                      Annual      Cumulative
                                          Discrepancies
                              2006               24,351
                              2007               19,315       21            21
                              2008               15,772       18            35
                              2009               11,867       25            51

City Carrier Cost System Testing

In two of six CCCS tests we reviewed, city carriers stated the DCT did not ask them to
identify whether parcels were regular or deviation parcels. This indicates the DCT may
not have used proper procedures4 to classify parcels. Although regular parcels can be
delivered along the carrier’s route, deviation parcels require a route deviation to the
customer’s door. The Postal Service considers route deviation activities, including
delivering deviation parcels to the customer’s door, to be dependent on the volume of
mail and therefore volume variable. The volume variable costs for delivering deviation
parcels are distributed to mail categories and special services based on estimated
deviation parcel volumes obtained from the CCCS testing. In FY 2009, management
attributed about $152.3 million in route deviation activity costs to mail categories and
special services based on estimated deviation parcel volumes developed from CCCS

4
 Handbook F-65a, Data Collection User’s Guide for Cost Systems, Chapter 3, City Carrier Costs System, Section
323, 2.d. (3), requires DCTs to classify sampled parcels as regular or deviation parcels based on feedback
from the city carrier.


                                                      2
Statistical Testing at Postal Service Districts                                                     CRR-AR-10-001



testing. Following the CCCS testing procedures will help ensure the deviation parcel
volume estimates used to attribute those costs are more accurate.

Additionally, in two CCCS tests, city carriers and/or their supervisors recorded incorrect
collection mail data because they did not understand the procedures for counting and
reporting collection mail. The existing testing procedures5 require DCTs to explain
collection mail procedures to the city carrier and their supervisor. During our review,
management issued new statistical testing guidance6 and forms to improve the
accuracy of collection mail data. Accordingly, we are not presenting a recommendation
regarding this specific issue.

We recommend the manager, Finance, Capital District, direct the manager, Statistical
Programs, Capital District, to:

1. Reinforce City Carrier Cost System testing procedures to ensure employees
   correctly record regular and deviation parcels information.

TRACS-Rail Tests

The Capital District completed one of six TRACS-Rail tests scheduled during our 2-
week review period. When DCTs arrived at the facilities to conduct the tests, they often
found the rail vans were not at the facilities. Nationally, DCTs did not complete 81 of
365 (22 percent) scheduled rail tests for the Q4, FY 2009. We also noted that three
districts did not conduct any of 42 scheduled rail tests during the Q4, FY 2009.

TRACS testing procedures instruct DCTs to contact network operations regarding the
scheduled movement of rail vans.7 Railroad mail is carried primarily in containers
(vans) on flat cars by freight trains. At train stations, the vans are attached to tractor-
trailers and taken to destination national distribution centers or sectional center facilities.
The TRACS-Rail test is conducted when mail is off-loaded at the destination facility.

One to 2 days before performing a TRACS-Rail test, the DCT should contact the vehicle
control office or personnel at the destination facility to verify the scheduled arrival of the
rail vans. The vehicle control office uses the Rail Management Information System
(RMIS)8 to determine which rail vans will arrive at the facility on the scheduled day.
Because rail transportation between facilities is used on an as-needed basis, the
scheduled TRACS-Rail test mail frequently does not arrive at the destination facility on
the scheduled test time/date. If the rail van does not arrive at the scheduled test time, a
replacement rail van can be sampled on that day or on a later day in that quarter.


5
  Handbook F-65a, Chapter 3, City Carrier Costs System, Sections 323, 2.d. (4) and 2.e., Section 323, 1.d. (4), and
Section 311.1, 7.
6
  Statistical Programs Letter # 1, FY 2010 Attachment 4, p. 1, PS Form 2846, City Carrier Route Mail Acceptance
Data, effective September 2009.
7
  Handbook F-65, Chapter 6, Conducting the TRACS Rail Test, Section 6.1.1, Communicate with the Facility
Personnel, pages 6-8.
8
  A computerized system that provides real-time rail movement information.


                                                          3
Statistical Testing at Postal Service Districts                                CRR-AR-10-001



Capital District DCTs contacted the vehicle control office to verify the movement of rail
vans. However, in five instances, the DCT arrived at the facility to conduct TRACS-Rail
tests but the rail van was not at the facility. TRACS testing procedures do not require
DCTs to verify real-time rail movements in the RMIS; however, doing so may help DCTs
avoid unnecessary time spent traveling to facilities. Additionally, completing more
TRACS-Rail tests would improve the accuracy of the TRACS data used to allocate the
$84.6 million in FY 2009 rail transportation costs to mail categories and special
services.

At the January 5, 2009, exit conference, management stated that rail transportation use
is in transition as they implement the network distribution center plan. Rail
transportation costs declined significantly during FY 2009 and they will monitor this
trend to determine whether TRACS-Rail sampling will be adjusted or stopped.

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Statistical Programs, to:

2. Update Transportation Cost System-Rail testing procedures to include the use of the
   Rail Management Information System to verify the movement of rail vans scheduled
   for testing.

Management’s Comments

Management agreed with the findings and the intent of the recommendations. In
reference to recommendation 1, management stated they would reinforce testing
procedures at the March 2010 quarterly statistical training session. Regarding
recommendation 2, management stated that the restructuring of the Postal Service
network has lead to a drastic reduction in rail trips. Therefore, they will continue to
monitor rail trips to determine whether TRACS-Rail sampling plans and procedures
need adjustment. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s actions should resolve the issues identified in the report. If management
continues TRACS-Rail testing, we believe that testing procedures should include use of
the RMIS to verify the movement of rail vans.




                                                  4
Statistical Testing at Postal Service Districts                            CRR-AR-10-001



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Revenue and Rates, or me at (703) 248-2100.


      E-Signed by Inspector General
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems


cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Jerry D. Lane
    J. Ron Poland
    James G. Hayman
    Sally K. Haring




                                                  5
Statistical Testing at Postal Service Districts                                 CRR-AR-10-001



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The CCCS is a statistical sampling and data collection system used to estimate mail
characteristics on different city routes and at different times of the year. This
determines the portion of total delivery costs attributable to mail categories and special
services. For each selected route-day, a sample of mail is selected, and for each
selected mailpiece, the class, product, and other characteristics are recorded using
Computerized On-Site Data Entry System (CODES) software. The Postal Service
conducted about 8,000 CCCS tests in FY 2009.

The IOCS is a statistical sampling and data collection system used to distribute the
labor costs of clerks, mail handlers, city carriers, and supervisors to the activities carried
out by those employees, particularly activities related to mail handling. The Postal
Service conducted about 650,000 IOCS tests in FY 2009, and recorded the test results
using the CODES software.

TRACS is a statistical sampling and data collection system used to attribute purchased
transportation costs to mail categories and special services. The TRACS uses three
separate sampling systems to collect data for purchased air, highway, and railroad
transportation. The Postal Service conducted about 18,000 TRACS tests in FY 2009,
and recorded the data using the CODES software.

The Statistical Programs Office at Headquarters Finance develops the statistical
sampling design and related data collection policies and procedures. They also process
and analyze national CCCS, IOCS, and TRACS data. Within each Postal Service
district, a statistical programs manager provides technical guidance on data collection
policies and procedures and monitors data collection results to ensure employees are
using proper sampling and reporting techniques. DCTs use laptop computers and the
CODES software to record the test results. For each type of statistical test, an
automated script in CODES guides the DCT through the data collection procedures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to review controls over statistical program procedures and testing in
selected Postal Service districts. Based on the results of our review of CCCS, IOCS,
and TRACS testing at the Capital District and efforts to improve the quality of statistical
programs, we curtailed the scope of our audit and issued a report on the Capital District.

We judgmentally selected the Capital District for review based on the high number of
IOCS/TACS discrepancies at the district and the fact that no statistical program audits
had been conducted at that district in the prior 3 years. We selected all CCCS and
TRACS tests conducted in the Capital District from September 12 through
September 30, 2009. This selection yielded 15 TRACS tests (three air tests, six




                                                  6
Statistical Testing at Postal Service Districts                             CRR-AR-10-001



highway tests, and six rail tests) and six CCCS tests. We randomly selected 40 out of
366 IOCS tests conducted during the same period.

To assess controls over statistical testing, we reviewed testing policies and procedures
and compared CCCS, IOCS, and TRACS test results to corresponding information from
Postal Service systems including the Enterprise Data Warehouse (EDW), TACS,
Transportation Information Evaluation System (TIMES), and Web End of Run
(WebEOR). Additionally, we interviewed personnel from the statistical programs office,
the Capital District Statistical Programs manager, and the Capital District DCTs that
conducted the tests.

To assess the reliability of CCCS testing, we compared the delivery point sequencing
(DPS) piece counts recorded on CCCS tests to DPS piece counts reported by
WebEOR. To determine whether employees were following testing policies and
procedures, we interviewed DCTs, city carriers, and supervisors who participated in the
CCCS testing.

To assess the reliability of IOCS testing, we compared employee work activities
recorded on IOCS test results with corresponding work activity recorded in TACS. To
determine whether employees were following testing policies and procedures, we
interviewed DCTs, sampled employees, and supervisors who participated in the IOCS
testing.

To assess the reliability of TRACS-Highway testing, we compared container and mail
volume information recorded on TRACS-Highway tests with corresponding information
recorded in the TIMES. To verify the reliability of TRACS-Air testing, we compared
dates, facilities, and weights recorded on TRACS-Air tests with corresponding
information recorded in the EDW. We were unable to compare TRACS-Rail tests with
corresponding data in the RMIS, because the RMIS identifies rail vans using barcodes,
and those barcodes were not recorded during TRACS-Rail tests.

We conducted this performance audit from August 2009 through January 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on January 5, 2010, and
included their comments where appropriate.




                                                  7
      Statistical Testing at Postal Service Districts                                                CRR-AR-10-001



      PRIOR AUDIT COVERAGE

                                                  Final
                                                 Report            Monetary
   Report Title         Report Number              Date             Impact                     Report Results
Transportation          MS-AR-07-002            3/20/2007             N/A          Overall, TRACS internal controls
Cost System                                                                        were effective and TRACS data was
                                                                                   valid and reliable. This report
                                                                                   contained no recommendations.
In-Office Cost          CRR-AR-08-004           3/31/2008        $3.2 million in   The Postal Service has adequate
System Telephone                                                 possible          policies and procedures for
Readings                                                         misallocation     conducting IOCS telephone
                                                                 of costs and      readings and recent management
                                                                 $12,355 in        actions have increased the accuracy
                                                                 funds put to      of data obtained from telephone
                                                                 better use        readings. However, in three
                                                                                   districts, 43 percent of IOCS
                                                                                   telephone readings we reviewed
                                                                                   were inaccurate. The telephone
                                                                                   readings were inaccurate because
                                                                                   data collectors and supervisors did
                                                                                   not follow policies and procedures
                                                                                   and some data collectors may have
                                                                                   falsified some or all of the
                                                                                   information in certain telephone
                                                                                   readings. Management agreed with
                                                                                   the findings and recommendations.
OIG Audit of            FF-AR-09-024            11/24/2008             N/A         The Postal Service generally
Statistical Tests for                                                              conducted IOCS; Origin-Destination
Fiscal Year 2008 –                                                                 Information System-Revenue,
Cost and Revenue                                                                   Pieces and Weight; System for
Analysis                                                                           International Revenue and Volume
                                                                                   Inbound; and TRACS tests in
                                                                                   accordance with established data
                                                                                   collection policies and procedures.
                                                                                   Management agreed with the
                                                                                   findings and recommendations.




                                                             8
Statistical Testing at Postal Service Districts                          CRR-AR-10-001



                    APPENDIX B: LIST OF IOCS/TACS DISCREPANCIES

There are six categories of IOCS/TACS discrepancies:

    1. The IOCS test records the employee on the street when TACS shows the
       employee is performing an office activity.

    2. The TACS shows the employee is performing a street activity when the IOCS
       test records the employee in the office.

    3. The IOCS test time is outside available TACS work time for the employee.

    4. The IOCS test records the employee in a work activity when TACS shows the
       employee is on leave.

    5. The IOCS test records the employee in a work activity when TACS data is
       missing or incomplete.

    6. The IOCS test records the employee is not available for testing when TACS
       shows the employee is clocked into work.




                                                  9
Statistical Testing at Postal Service Districts               CRR-AR-10-001



                          APPENDIX C: MANAGEMENT’S COMMENTS




                                                  10
Statistical Testing at Postal Service Districts        CRR-AR-10-001




                                                  11
Statistical Testing at Postal Service Districts        CRR-AR-10-001




                                                  12
